Audit of USAID/Rwanda’s Monitoring of the
  Performance of Its HIV/AIDS Program


           Report No. 4-696-02-003-P
               March 11, 2002




        PRETORIA, SOUTH AFRICA
U.S. Agency for
INTERNATIONAL
 DEVELOPMENT

RIG/Pretoria

March 11, 2002

MEMORANDUM
FOR:              Mission Director USAID/Rwanda, Dick Goldman

FROM:             Acting Regional Inspector General Pretoria, Nancy J. Lawton

SUBJECT:          Audit of USAID/Rwanda’s Monitoring of the Performance of
                  Its HIV/AIDS Program (Report No. 4-696-02-003-P)


This is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report. We have included
those comments, in their entirety, as Appendix II to this report.

This report contains one recommendation. Based on actions taken, as reported
by the Mission, a management decision has been reached on Recommendation
No. 1. Please advise the Bureau of Management Planning and Innovation,
Management and Innovation and Control Division (M/MPI/MIC) when final
action is complete.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                               1
Table of   Summary of Results                                            3
Contents
           Background                                                    4

           Audit Objectives                                              5

           Audit Findings                                                5

                  Did USAID/Rwanda monitor performance of its
                  HIV/AIDS program in accordance with Automated
                  Directives System (ADS) guidance?

                     USAID/Rwanda Should Periodically                    6
                     Review Its Performance Monitoring Plan

                     USAID/Rwanda Should Implement                       8
                     Adequate Controls

                  Is USAID/Rwanda achieving intended results from its    13
                  HIV/AIDS program?

                  What is the status of USAID/Rwanda’s efforts to meet   20
                  anticipated HIV/AIDS reporting requirements?

           Management Comments and Our Evaluation                        23

           Appendix I – Scope and Methodology                            24

           Appendix II – Management Comments                             27

           Appendix III – Rapid Scale-Up and Intensive Focus             30
                          Countries

           Appendix IV – Summary of USAID/Rwanda’s Selected              31
                        Performance Monitoring Controls




                                                                         2
Summary of
             Over the last three years USAID funding for HIV/AIDS1 has increased
Results
             dramatically−from $142 million in fiscal year 1999 to over $300 million in
             fiscal year 2001. This increase has created a demand for greater
             accountability on the part of USAID and its operating units, both as to
             monitoring progress and achieving intended results. (See pages 4 to 5.)

             USAID procedures for monitoring programs, including its HIV/AIDS
             programs, are contained in its Automated Directives System (ADS). The
             ADS sets forth requirements that operating units must follow in managing
             their programs, such as the establishment of indicators, identification of data
             sources, and planned methods by which data are to be collected. We tested
             USAID/Rwanda’s monitoring of its HIV/AIDS program against eleven
             controls contained in the ADS. USAID/Rwanda had fully implemented only
             three of the eleven controls. In order for USAID/Rwanda to monitor
             performance of its HIV/AIDS program in accordance with the ADS
             requirements, we recommend that USAID/Rwanda fully implement the 11
             monitoring controls and establish and follow a schedule in which its
             performance monitoring plan is reviewed at least annually. (See pages 5 to
             12.)

             Results-oriented management must be used to reasonably ensure that
             programs achieve their intended results. USAID/Rwanda (Mission) has seven
             indicators in its Performance Monitoring Plan to measure results in its
             HIV/AIDS program. However, data was collected for only three indicators
             which were the ones reported in the Results Review and Resource Request
             (R4)—condom use, sexually transmitted infection (STI) diagnosis and
             treatment, and STI/HIV knowledge. These were the indicators selected for
             audit testing.

             However, we are unable to express an opinion on whether USAID/Rwanda is
             achieving intended results from its HIV/AIDS program because reliable and
             pertinent data was not available when the indicators were developed in
             February 2000. (See page 5.) Nevertheless, through its partners, the Mission
             had made progress in year 2000. The Mission and Rwanda continue to transit
             from an emergency response to a sustainable development basis and now the
             Mission is planning for the future. Based on these conditions, we are not
             making any recommendations. (See pages 13 to 20.)

             To improve the monitoring process for its HIV/AIDS program, USAID has
             drafted monitoring and evaluation guidance, “USAID’s Expanded Response
             to the Global HIV/AIDS Pandemic.” The guidance establishes several global
             targets USAID expects to achieve as a result of the additional funding it
             anticipates receiving. The guidance also requires missions to routinely
             1
                 HIV is Human Immunodeficiency Virus and AIDS is Acquired Immunodeficiency Syndrome.



                                                                                                       3
             monitor and evaluate their HIV/AIDS programs using standard indicators. As
             a recipient of additional funding, USAID/Rwanda is preparing to meet these
             additional monitoring requirements. The results of our review indicate that
             the Mission is on its way to meeting its requirements under the newly drafted
             Guidance. (See pages 20 to 22.)


Background
             USAID funding for HIV/AIDS has more than doubled over the past three
             years: from $142 million in fiscal year 1999 to over $300 million in fiscal year
             2001. USAID is organizing its response to HIV/AIDS around three categories
             of countries: rapid scale up countries, intensive focus countries, and basic
             countries. (See Appendix III for descriptions of these categories.) Rwanda, a
             landlocked country in central Africa with a population of about 8.3 million, is
             one of thirteen intensive focus countries. USAID plans to increase funding to
             these countries to reduce prevalence rates, to reduce HIV transmission from
             mother to infant, and to increase support services for people with HIV/AIDS.

             HIV/AIDS is a major public health problem in Rwanda, with an estimated
             prevalence rate of about 11 percent among the adult population (ages 11 to
             45). Life expectancy has been reduced from 54 to 42 years as a result of
             AIDS, which is one of the three leading causes of death in Rwanda. Several
             factors contribute to the rapid spread of HIV/AIDS in Rwanda. These include
             the economic crisis; high rates of multiple sex partners; the early onset of
             sexual activity; the high presence of sexually transmitted infections; the
             availability of commercial sex; rape; and cultural beliefs, including the
             resistance to talk about sex or use condoms.

             The instability of the transition period during which USAID/Rwanda
             implements its programs cannot be over emphasized. The civil war in
             Burundi and the crisis in eastern Congo have the potential to destabilize
             Rwanda internally. Under these circumstances, USAID and other key donors
             agree that the transition to a functioning democracy and more sustainable
             economic development will take at least another two to three years.

             The situation in Rwanda today remains characterized by demographic
             shifts affecting as much as one-half of the population; resettlement and
             rehabilitation needs in all parts of the country; and a huge loss of human
             resources whether through flight, participation in the genocide, or death.
             More than 2.3 million refugees have returned to Rwanda. According to a
             1997 study, HIV prevalence is rising among Rwanda’s vast rural
             population. According to the study, the infection rate among youths (15-
             to 19-year olds) was 8.5 percent in rural areas and 3.4 percent in cities.




                                                                                          4
                   Funding for USAID's HIV/AIDS program in Rwanda, according to
                   USAID/Washington, was $3 million in FY 1999, $3.5 million in FY 2000,
                   and, according to USAID/Rwanda, $5.2 million in FY 2001.


Audit Objectives   This audit is one of a series of audits being conducted worldwide of USAID’s
                   monitoring of the performance of its HIV/AIDS program at the mission level.
                   The Performance Audits Division of USAID’s Office of Inspector General is
                   leading the audits.

                   The audit objectives and its scope and methodology were developed in
                   coordination with USAID’s HIV/AIDS Division in the Bureau for Global
                   Programs, Field Support and Research. The Regional Inspector General,
                   Pretoria (RIG/Pretoria) performed this audit in Rwanda to review
                   USAID/Rwanda’s HIV/AIDS program and, specifically, to answer the following
                   audit objectives:

                   •   Did USAID/Rwanda monitor performance of its HIV/AIDS program in
                       accordance with Automated Directives System (ADS) guidance?

                   •   Is USAID/Rwanda achieving intended results from its HIV/AIDS program?

                   •   What is the status of USAID/Rwanda’s efforts to meet anticipated
                       HIV/AIDS reporting requirements?

                   Appendix I describes the audit’s scope and methodology.



Audit Findings     We cannot fully answer audit objective two because, prior to year 2000,
                   reliable and pertinent data was not available from which USAID/Rwanda
                   could choose baseline data that reflected indicator activities. Due to the lack
                   of country data, the Mission used the baseline data considered closest to
                   indicators chosen for reporting. However, the baseline data used a different
                   age group and had broader definitions than the actual performance data
                   reported in year 2000. Therefore, comparisons of baseline data and
                   performance data produced no meaningful measures of progress.
                   (See page 13.)

                   Did USAID/Rwanda monitor performance of its HIV/AIDS program in
                   accordance with Automated Directives System (ADS) guidance?

                   USAID/Rwanda did not fully monitor performance of its HIV/AIDS program in
                   accordance with the ADS. The ADS outlines USAID's policies and procedures
                   for implementing a performance monitoring system. Two areas of the Mission's



                                                                                                5
performance monitoring system that should be improved are the frequency with
which it updates its performance monitoring plan and the implementation of all
performance monitoring controls.

USAID/Rwanda's performance monitoring plan (PMP) for its health strategic
objective included seven performance indicators for monitoring its HIV/AIDS
program. We selected a sample of three HIV/AIDS performance indicators for
review: (1) condom use; (2) sexually transmitted infection (STI) diagnosis and
treatment; and (3) STI/HIV knowledge.

In a cable dated October 1999 the Mission was instructed to develop indicators
and to begin reporting on this. In February 2000, a consultant from Washington
worked with Mission staff to develop a PMP with indicators. A review of this
PMP showed that data sources were identified and data collection schedules
were specified for the three indicators tested. The Mission also used other
means of performance monitoring, such as portfolio reviews. (See Appendix
IV.)

Mission focus has been on rebuilding and strengthening the country's health
system by working with the Government of Rwanda. Until October 1999,
USAID/Rwanda was exempt from much of the monitoring and evaluation
policies the ADS usually requires. Consequently, 1999 was the first year in
which these exemptions no longer applied.

And finally, Rwanda appears to be emerging from its turbulent period of civil
war and genocide. During that period USAID focused activity on emergency
humanitarian assistance, instead of developing health and social services for
HIV/AIDS and changing behavior related to STIs. The Mission Director
pointed out that, only a few years ago, forays into the Rwandan countryside
required armed escort. During audit fieldwork, conditions had changed such that
during daylight hours, it was possible to accompany the Mission's technical
advisor on her first site visit to a Rwandan HIV/AIDS treatment center. These
improved conditions should facilitate coordination and program activity
assessment by program staff.

However, without updating its PMP or adequately implementing required
performance monitoring controls, USAID/Rwanda did not fully monitor the
progress of its HIV/AIDS program according to the ADS. These two areas are
discussed below:

USAID/Rwanda Should Periodically
Review Its Performance Monitoring Plan

At the time of the audit, the Mission's PMP had not been updated in almost two
years (since February 2000). ADS 201 requires that the PMP be updated at least



                                                                              6
annually as part of portfolio reviews and Results Review and Resource Request
(R4) report preparation. Periodic updates ensure the usefulness and relevance of
a PMP. Furthermore, ADS 203 states that a PMP should be the cornerstone of a
strategic objective team's (SO team) performance management system. An
outdated PMP provides little assistance in the timely and consistent collection of
performance data.

The Mission Director suggested that the focus of the Mission had been on
“performance, not evaluation and reporting”. USAID/Rwanda's programs were
emerging from an emergency period during which the host country suffered
from devastating civil war and genocide. On the wall in the Mission are the
names of more than a dozen Mission employees killed during that period.




 Plaque in the USAID/Rwanda Mission reception area memorializing Mission employees
 killed during the 1994 genocide. (October 2001)

Also, the SO team members explained that the PMP may not have been updated
because of limited staff. In fact, when the FY 2003 R4 was prepared, the SO
team consisted of only one employee with technical expertise. At the time of the
audit, the SO team had three technical employees, which should help to address
this weakness.

USAID/Rwanda’s explanations for why the PMP was not updated were
compelling and have been fundamentally addressed. Nevertheless, the Mission
had not been relieved of the "evaluation and reporting" to which the Mission
Director referred. During the period in which the PMP was not updated, the
ADS requirements applied to USAID/Rwanda. Moreover, it should be noted


                                                                                 7
that while PMPs are required by the ADS, they are intended for the benefit of the
operating unit in planning, managing, evaluating and reporting.

In summary, by not updating its PMP, at least annually as required by ADS 201,
USAID/Rwanda did not benefit from the evaluation and reporting methodology
a PMP is intended to provide, i.e., a results-oriented approach to performance
management. Such an approach would have gone far beyond simply collecting
performance information and reporting it to Washington. By updating the PMP,
USAID/Rwanda could have put performance information to work by using data
continuously to inform key management decisions, improving tactics and
organizational processes, identifying performance gaps, and setting goals for
improvements. By analyzing and reporting in this way, USAID/Rwanda could
have been better able to deliver sustainable development results.

To ensure that USAID/Rwanda does not continue to forgo the critical
components of evaluation and reporting, as provided by an updated PMP, we are
making one recommendation. However, because the two problem areas are
interrelated, we are making a single recommendation at the end of the next
problem area.

USAID/Rwanda Should Implement
Adequate Controls

As mentioned in the previous section, USAID/Rwanda did not monitor its
HIV/AIDS program in the way specified by the ADS. Most of the performance
monitoring controls tested were found to be inadequate. ADS 201 specifies that
certain performance monitoring controls must be implemented. Office of
Management and Budget Circular A-123 adds clarity to this requirement with
the instruction that federal managers must ensure the adequacy of control
measures for results-oriented management. USAID/Rwanda did not institute the
controls as required because of the relative newness of the indicator reporting
requirements and limited staff. Because of these circumstances, there is
significant doubt about USAID/Rwanda’s effective monitoring of its HIV/AIDS
program and its accuracy in reporting results.

We reviewed USAID/Rwanda's implementation of eleven performance
monitoring controls contained in the ADS as they pertained to three
performance indicators selected for the audit—condom use; STI diagnosis and
treatment; and STI/HIV knowledge. As summarized in Appendix IV, eight of
eleven controls were inadequately implemented for one or more of the selected
indicators. The following is a detailed discussion comparing each of the eight
controls to the relevant ADS requirement.

Indicator Precisely Defined – The three HIV/AIDS performance indicators
selected for audit used technical terms that were neither explained nor precisely



                                                                              8
defined. ADS 201 indicates that a PMP must provide a detailed description of
the performance indicators to be tracked. All three indicators selected for the
audit contained expressions such as "target group" and "target areas," which are
ambiguous. The indicators also included imprecise technical elements such as
"most recent act" and "national standards," which may be subject to different
interpretations. Without clear and precise definitions, data collected could vary
over time, reflecting subjective interpretations, independent of any actual
change.

For example, the indicators for "condom use" and "STI/HIV knowledge" refer
to "target group" within their indicator statements. However, this expression
does not convey the true meaning of the population being measured. In fact, the
data presented as baseline data for both indicators refers to 15- to 45-year olds,
but the performance data refers to 15- to 19-year olds. Such variation
compromises the reliability of the reported data and distorts reported
performance. Specificity could help to prevent such variation, which in turn,
leads to improved performance monitoring and reporting.

Data Collection Method Described – For the three indicators tested, the PMP
provided no information about the data collection methods to be used, the
method or approach of calculating the specific indicator data point and whether
or not data manipulation was to be used. The ADS 201 requires that a PMP
specify the methods for data collection. The SO team members indicated that
the team relied heavily on partners to ensure that data collection methods
resulted in good data quality and were reliable. Data reliability depends on the
consistency of these processes and the ability to replicate them. But because the
data collection methods were not described, it is uncertain whether data reported
in the future will be reliable.

Responsibility Assigned – Data collection responsibilities were not assigned in
the PMP for the three indicators tested. ADS 201 requires that a PMP assign
responsibility for data collection to a specific office, team, or individual.

For example, data collection responsibilities were not assigned for the indicator
"STI diagnosis and treatment." USAID/Rwanda did not receive year 2000 data
for "STI diagnosis and treatment" until February 2001—one month before that
year’s R4 was to be published. In the end, the data was not included in the
Mission’s PMP or the R4 report.

The small size of the SO team may have limited the utility of assigning
responsibility, such as ensuring the timely receipt of data. In February 2001, the
SO team consisted of only one employee with technical experience. For much
of the previous calendar year, the team consisted of only two such employees
and neither was present for the entire year.




                                                                              9
Nevertheless, the PMP is intended to be a tool to assist the SO team in planning
and monitoring its HIV/AIDS program. Use of this tool would have defined and
delegated responsibilities and could have assisted the SO team in accomplishing
its monitoring and reporting duties for the "STI diagnosis and treatment”
indicator.

Data Limitations Disclosed – Data limitations were inadequately and
incompletely disclosed in the PMP for the three indicators tested. Data
limitations disclosed in the PMP were not sufficient to allow an understanding
of the degree one should rely on the data. ADS 201 indicates that a PMP
describe the known data limitations.2

For example, for "condom use," the following inadequate data limitation was
included, "Baseline data…may not be directly comparable." Since the
performance data presented for this indicator showed a decline of approximately
50 percent in condom use reported by males (from 42 percent in 1998 to 20
percent in 2000),3 users of the PMP might assume a decline in condom use.
In fact, the baseline data was not comparable because it presented information
on a different and larger age group (15- to 45-year olds) than the performance
data (15- to 19-year olds). One cannot determine from the baseline and
performance data presented in the PMP whether or not there had been a change
in reported condom use among 15- to 19-year old males. This condition should
have been disclosed.

This inadequate disclosure of data limitations in the PMP may lead the users of
this data to make incorrect conclusions. The complete disclosure of data
limitations permits users to understand to what degree one may rely on the data
being presented.

Data Quality Assessment Procedures Described – No data quality assessment
procedures were included in the PMP for any of the three indicators. ADS 201
requires that a PMP describe the quality assessment procedures that will be used
to verify and validate the measured values of actual performance.

The PMP requirement was effective in June 2001, and USAID/Rwanda’s PMP
was last revised in February 2000. However TIPS No. 7, published in 1996,
recommended that plans for how performance data are to be analyzed should be
included in the PMP. Thus, by not planning for assessments, it was less likely
that they would occur, with the end result that unreliable data was included in
the PMP and R4 reports.


2
  This requirement was added to ADS 201 in August 2000, subsequent to the update of the Mission’s
PMP. However, in the R4 preparation guidance, missions were required to report on "known data
limitations" for R4 indicators. All three indicators tested were used in USAID/Rwanda’s R4.
3
  1998 (baseline data) and 2000 (performance data) were the only years for which performance data was
reported.



                                                                                               10
Data Quality Assessments Performed – USAID/Rwanda did not perform or
document any data quality assessments either at the establishment of the
selected indicators or after data collection. ADS 203 requires the
performance monitoring control of performing data quality assessment when
establishing the performance indicators and when choosing data collection
sources and methods. For each indicator reported in the R4 performance data
tables, data quality must be reassessed as needed, but no less than once every
three years. Such assessments are intended to ensure that performance
information is sufficiently complete, accurate, and consistent.

For two indicators—"condom use" and "STI/HIV knowledge"—assessments
of performance data are not considered as critical because the data was
gathered via a survey conducted countrywide, under USAID centrally
managed contracts. Such contracts typically specify numerous controls over
data collection. However, data quality assessments would have allowed for
better-informed monitoring and at the very least, they should have been
performed on the other performance and baseline data. For example, during a
site visit conducted as part of audit fieldwork, the Mission's technical advisor
discovered a major data limitation for one indicator, "STI diagnosis and
treatment." A data quality assessment should have been performed on the data
for this indicator, but there was no evidence that one had been done.

The indicator measures the number of STI cases diagnosed and treated
according to national standards. However, during the audit site visit the
technical advisor learned that the specified procedures and data collected
addressed only STI cases with evident symptoms. Not all STIs produce visible
symptoms. For example, herpes may not produce any visible symptoms among
infected women. Consequently, the performance indicator's measurement
applied to a smaller population than USAID/Rwanda anticipated. The
indicator's measurement may under represent certain populations and, as a
consequence, lessen its usefulness for monitoring program performance.

The SO team stated that data quality assessments might not have been
conducted previously because the team was understaffed and because they felt
that the methods and partners were well established and reputable.
Nevertheless, not only are such assessments required, but as the example above
shows, they can increase understanding of the relevance of indicators and reveal
data limitations for reporting purposes. Not having conducted such assessments,
USAID/Rwanda had an imperfect understanding of program impact and
presented data in the R4 without having knowledge or giving notice of its
limitations.

Baseline Established – Each of the three indicators selected for this audit
contained baseline data. However, for two indicators ("condom use" and
"STI/HIV knowledge") the baseline data was not comparable with the



                                                                              11
performance data. ADS 201 states that indicator baselines should reflect the
value of each performance indicator at the beginning of the planning period.
Then the comparison of subsequent performance data to baseline data allows
operating units to determine program progress. Although the Mission's options
in establishing baseline data may have been limited, the baselines for two
indicators were not useful for such determinations.

To illustrate, for the indicator "STI/HIV knowledge," comparison of baseline
data and subsequent performance data showed a decrease in reported HIV/AIDS
knowledge by about one third. However, because the baseline data referred to a
larger population than the performance data, the data was not comparable. In
the end, program staff using the PMP and the R4, where the data was also
reported, may be left wondering what, if any, progress was achieved.

Data Agrees to Source – Data presented in the PMP is not totally consistent
with its data sources. ADS 203 requires data be accurately transcribed from
its source. The ADS specifically mentions the R4, but this is an essential
element of all data reporting.

For "condom use," data presented for females was incorrectly transcribed for
1998 baseline data and 2000 performance data. Additionally, the indicator
statement for "STI diagnosis and treatment" was incorrectly stated and did not
match the data presented. The SO team members could not explain the errors.
As a result, data included in the PMP may not represent actual progress when
the indicator is misstated or when there are errors in transcribing data.

In conclusion, by not fully implementing these eight performance monitoring
controls, USAID/Rwanda did not benefit from the monitoring mechanisms the
ADS provides. Similar to the problem area of not updating its PMP annually,
most of the causes USAID/Rwanda offered for these deficiencies have been
addressed—social and political conditions in Rwanda have improved and the SO
team has increased its technical staff. However, to assist USAID/Rwanda in
ensuring that it will accurately monitor progress of its HIV/AIDS program in
accordance with the ADS, and will report R4 data that is both accurate and
useful, we are making the following recommendation.

       Recommendation No. 1: We recommend that, in accordance
       with Automated Directives System requirements,
       USAID/Rwanda fully implement the 11 performance
       monitoring controls discussed in this report, and establish
       and follow a schedule in which its performance monitoring
       plan is reviewed at least annually.




                                                                          12
Is USAID/Rwanda achieving intended results from its HIV/AIDS
program?

As discussed on page 5, we cannot fully answer the audit objective.
Nevertheless, USAID/Rwanda has made progress in its HIV/AIDS activities.

Office of Management and Budget Circular A-123 requires that agencies and
individual federal managers take systematic and proactive measures to
develop and implement management controls for results-oriented
management. It goes on to state that management controls are the policies and
procedures used to reasonably ensure that programs achieve their intended
results. These controls consist of establishing indicators to manage for results,
collecting baseline data for these indicators prior to project intervention,
setting targets for these indicators, periodically collecting data to monitor
results, and assessing the quality of the data being collected.

Indicator baselines should reflect the value of each performance indicator at
the beginning of the planning. Due to the lack of country data prior to 2000,
the Mission used the baseline data considered closest to indicators chosen for
reporting in the FY 2002 R4 (1999 activity data) for two indicators. This
baseline data used a different age group and had broader definitions that the
performance data reported in 2000, and intended results set upon these
baselines were much higher than could be achieved. According to the
USAID/Rwanda’s Revised Integrated Strategic Plan through FY 2004,
genocide and civil war decimated the health infrastructures in Rwanda along
with most of the relevant data necessary to track the health and well being of
its citizens. Therefore, the Mission was unable to meet the Office of
Management and Budget Circular A-123 baseline requirements.

Nevertheless, the Mission achieved progress in its HIV/AIDS activities
through its partners in 2000. Those achievements were not quantifiable
compared to the targets, but are evidenced by increased services to the
community. Some examples are: same day Voluntary Testing and Counseling
Centers were opened in target areas; Information, Education and
Communication activities to spread STI/HIV knowledge in target areas
continued; health workers and counselors were trained in STI symptomatic
diagnosis and treatment; and Rwanda’s Ministry of Health received support
and training for its health regions. The first Behavioral Surveillance Survey
since Rwanda's civil war was developed and published with USAID funding.

USAID/Rwanda’s STI/HIV/AIDS activities in 2000 were primarily originated
and developed through USAID’s Bureau for Global Programs, Field Support
and Research in Washington under a cooperative agreement with Family
Health International (FHI). Due to limited staff, the Mission uses "buy-ins" or
field support so that most administrative duties will be carried in Washington.



                                                                            13
USAID/Rwanda’s primary cooperating partner, FHI, developed a program
called Implementing AIDS Prevention and Control Activities (IMPACT) to
design, develop, manage, monitor and provide technical support of country-
specific HIV/AIDS program interventions. In January 1998, through the
IMPACT Project, FHI initiated a new program of activities in Rwanda
directed at building the capacity of four health regions: Byumba, Kibungo,
Gitarama, and Kigali. (See following map.)




       Current map of Rwanda showing major towns, including the
       original target areas of Byumba, Kigali, Gitarama, and
       Kibungo and the recently added Kibuye and Butare areas.

The activities included control of sexually transmitted disease; information,
education and communication for behavior change; and general program
planning and management.

The Mission health strategic objective team (SO team) has seven indicators
related to STI/HIV/AIDS in its PMP. We tested the following three
indicators, which the SO team reported in the R4: (1) condom use; (2) STI
diagnosis and treatment; and (3) STI/HIV knowledge. Following is a
discussion of each indicator.

Condom Use – The full definition for this indicator is: "percentage of youth
reporting condom use in most recent act with non-regular and non-commercial
partner." While this indicator does not directly reflect program activities, it is



                                                                             14
an internationally accepted measure of information, communication and
education efforts.

As shown in Table 1, in year 2000, the performance data for condom use
reported by USAID/Rwanda fell short of the targets for both males and
females. USAID/Rwanda used a 1998 survey4 for baseline data and to set
targets for this indicator. However, the survey defined the population as
adults who said that they had used condoms at least once, whereas, the actual
performance data for year 2000 reported on youths aged 15 to 19 who had
used a condom in their last act with a non-regular partner. As the indicator
was established in February 2000, no targets were set for 1999.
USAID/Rwanda’s FY 2002 R4 (1999 activity data) recognized the weakness
of the reported targets and stated that targets would be adjusted in year 2000
based on the Behavioral Surveillance Survey data.

                                      Table 1
                Percentage of youth reporting condom use in most
                       recent act with non-regular partner
                                (Data not audited)
                Year     Targets              Performance
                1998     Baseline             M 42
                                              F8
                1999     No target set        No data collected
                2000     M 50                 M 20
                         F 35                 F 11

             Note: M denotes males; F denotes females.

USAID/Rwanda has several programs through its partner FHI, which include
activities designed to encourage condom use. FHI provides STI/HIV
information and education through STI clinics and Voluntary Counseling and
Testing centers. It also has information and education projects under
Population Communication Service (PCS) and Johns Hopkins University.

The youth-focused information and education program seeks to overcome the
stigma related to talking about sex and STI/HIV. The program purpose is to
delay first sex among young people and encourage lifelong, mutually
monogamous partnerships. The youth project is called KUBA, an acronym in
Kinyarwandan for abstinence, fidelity and condom use.

During the audit, the audit team held a meeting with representative students to
determine first hand what they have learned in the program. The students
most often named abstinence and fidelity as means to prevent HIV/AIDS, but
were reluctant to mention condom use. The Mission health SO team
4
    The 1998 Population Services International, "Sexual Behavior and Condom Use Survey."



                                                                                           15
expressed its intention to re-evaluate the project and try a new approach to
reaching youth and overcoming the social and religious stigma to using
condoms. To overcome the cultural resistance to using condoms, the Mission
plans to develop a new information approach.

In summary, the "condom use" indicator is an indirect measurement for
USAID/Rwanda’s HIV/AIDS knowledge activities. We were not able to
measure intended results due to the lack of comparable data available for
establishing baseline and targets.

STI Diagnosis and Treatment – This indicator measures the percentage of
persons with STIs properly diagnosed and treated, according to national
standards, in target areas. USAID helped set these standards which include
requirements for the facilities, training, and drug availability.




         The Voluntary Counseling and Testing Center at Kabgayi, Gitarama where
         the STI/HIV information and prevention tape is shown.
         USAID posters with information about HIV/AIDS and STIs are displayed.
         (October 2001)

Sexually transmitted infections (STIs) are a major health problem in many
countries because the presence of STIs increases the likelihood of HIV
transmission. USAID/Rwanda promoted a basic diagnostic technique that
substitutes an examination and interview approach for expensive—and often
unavailable—laboratory testing. Properly trained personnel conduct the
examination and interview to determine if an STI is present.

Working with the Rwanda Ministry of Health, FHI developed an agreement
with each of the Ministry of Health target regions of Byumba, Kigali,
Gitarama, and Kibungo under which:




                                                                                  16
•   STI trainers and health care providers were trained in syndromic
    management of STIs,
•   Clinic social workers (counselors) were trained in STI/HIV/AIDS
    counseling, and
•   STI supervision protocols were developed and piloted.

FHI also developed and helped to implement a supervision checklist for
information, education and communication activities.

USAID/Rwanda’s FY 2002 R4 reported 1999 data and was the first time
reporting on indicators was required for the Mission. Prior to this, the Mission
was exempt due to the emergency situation in Rwanda. As can be seen from
Table 2, year 2000 results of 77 percent of all patients reported by FHI were
below target. According to FHI, the reason for the 7 percentage points decrease
from 1999 actuals was inadequate supervision by regional Ministry of Health
supervisors in terms of frequency of visits to the clinics and diagnosis
monitoring. In 2001, FHI trained additional supervisors and they are making
more supervisory trips to the regional clinics.

                                   Table 2
                  Percent of STI Cases Correctly Diagnosed
                        and Treated in Target Areas
                              (Data not audited)
        Year              Target                 Performance
         1997             Baseline                    67
        1998                 80               No data collection
        1999                 85                       84
        2000                 90                       77

     Note 1: The source for baseline information was a 1997 Evaluation of STD
     Training Programs in Rwanda from the AIDS Control and Prevention Project under
     Family Health International. It was based on results from three projects with a sample
     of 163 people.




                                                                                              17
           The USAID health SO staff review data records and collection
           methods with the clinic nurse, the Ministry of Health supervisor,
           and FHI manager at the Nyarusange STI clinic. (October 2001)

STI/HIV Knowledge – This indicator was originally defined as the
percentage of target group citing three effective means of protecting
themselves from HIV infection. The three possible methods were abstinence,
using condoms, and mutual monogamy. The Behavioral Surveillance Survey
data was presented as at least two methods and, therefore, the indicator was
changed to reflect the change in data definition.

A majority of the HIV/AIDS activities are focused on or contain a segment
related to information, education and communication about STI/HIV/AIDS.
Although there is greater awareness of STI/HIV/AIDS in USAID/Rwanda target
areas compared to other regions, the levels of knowledge and behavior change
reported were less that expected.

Rwanda is a very religious country and religious institutions and some
denominations do not support condom use as an option for HIV prevention.
According to the PMP and the data reported in the FY 2003 R4,
USAID/Rwanda did not set targets for year 2000. As shown in Table 3, if
performance data for youths aged 15 to 19 for year 2000 is compared to 1999
baseline data there was a decrease of thirty three percent in year 2000 for
males (90 – 60 = 30/90) and thirty two percent for females (82 – 56 = 26/82).
However, baseline data represent adults aged 15 to 45 who agree that condom



                                                                               18
use prevents people from getting AIDS. Unfortunately, the baseline was not a
good foundation and the actual results, as reported in the FY 2003 R4, showed
no progress. Therefore, there is no real comparison between the baseline data
and the activity performance data. USAID/Rwanda’s FY 2002 R4 (1999
activity data) recognized the weakness of the baseline data and stated that
future targets would be set in year 2000 based on the Behavioral Surveillance
Survey data.


                                Table 3
        Percentage of Youth Citing at Least Two Effective Means
             of Protecting Themselves from HIV Infection
                           (Data not audited)
          Year        Target              Performance
        1999 (2)        Baseline         M 90
                                         F 82
          2000          None             M 60
                                         F 56
       Note 1: M denotes males; F denotes females.
       Note 2: The baseline data was erroneously reported as year 1999 in the R4,
       instead of year 1998.

As part of the Mission’s plan to improve reporting, and as reported in the FY
2003 R4, the STI/HIV knowledge indicator analyzed above is expected to
change for reporting of 2001 performance data to "the target population per
month who voluntarily request an HIV test at USAID sponsored Voluntary
Counseling and Testing sites." There is no current indicator for this activity,
but it also supports STI/HIV information and education. In 2000, reported
results data was 1,287 per month at four sites. The target for 2001 was 3,900
per month as the number of available testing sites was expected to increase to
20.

During fieldwork, the auditors visited one center in Kabgayi where patients are
tested, counseled, and treated. The clinic is able to handle 20 patients and their
families a day with two full time counselors. Often there are 60 persons seeking
treatment. An STI/HIV film is shown prior to testing. Then one by one patients
are tested (blood drawn) and they return later that day to receive the results.
Results and individual/family counseling are given in rooms with private exits
for patient confidentiality.

One of the many questions on the form for each patient at the Voluntary
Counseling and Testing centers is the question: "Did you use a condom in most
recent act with non-regular partner?" The data from these questionnaires are




                                                                                    19
entered into a computer data entry program and gathered countrywide for the
Behavioral Surveillance Survey.




               A counselor gives HIV test results and advises a couple on STI/AIDS
               prevention at the Kabgayi Voluntary Counseling and Testing Center. (October
               2001)

To summarize, STI/HIV knowledge results were disappointing and the Mission
plans to replace the current indicator and re-evaluate the activity.

In conclusion, due to the lack of measurable, comparative baseline data the
audit work could not support an opinion as to whether USAID/Rwanda had
achieved intended results from its HIV/AIDS program. However, the Mission
has achieved progress in its HIV/AIDS activities in year 2000 by increased
services to the community. The Mission and country continue to transit from
an emergency response to a sustainable development basis and now
USAID/Rwanda is planning for the future. The Mission plans to replace the
STI/HIV indicator and use the Behavioral Surveillance Survey 2000 data for
setting better targets for the future. The Mission is also in the process of
developing a new performance monitoring plan. Based on the foregoing, we
are not making any recommendations.

What is the status of USAID/Rwanda’s efforts to meet anticipated
HIV/AIDS reporting requirements?

USAID/Rwanda has begun the process of meeting future HIV/AIDS reporting
requirements in USAID’s newly drafted guidance.

Due to the significant increase in HIV/AIDS funding from 1999 to 2001, there
has been a great deal of interest in monitoring the results of USAID’s
assistance in this area. In March 2000 USAID's Global Bureau developed a



                                                                                             20
handbook of standard indicators that operating units could use to measure the
progress of their HIV/AIDS programs. In March 2001, the U.S. General
Accounting Office issued its report on USAID’s fight against AIDS in Africa,
which reported the need to be able to better monitor progress. In its report the
General Accounting Office recommended that USAID’s operating units adopt
standard indicators to measure program performance, gather performance data
on a regular basis, and report data to a central location for analysis.

To improve the monitoring process for its HIV/AIDS program, USAID issued
its draft monitoring and evaluation guidance, “USAID’s Expanded Response
to the Global HIV/AIDS Pandemic.” This new guidance establishes several
global targets USAID expects to achieve with its additional funding and
requires missions to routinely monitor and evaluate their HIV/AIDS programs
in a definitive, systematic way and to report on their progress. As an
“intensive focus country,” the draft guidance would require USAID/Rwanda
to implement this enhanced monitoring and reporting system. The system
would collect and report information at three levels:

•   At the first level, USAID/Rwanda would be required, by 2007, to develop a
    national sentinel surveillance system to report annually on HIV incidence
    rates so as to measure the overall effect of national HIV/AIDS prevention
    and mitigation programs on the pandemic. The standard indicator for this
    measurement, according to the draft guidance, would be HIV-prevalence
    rates for 15- to 24-year-olds. The Centers for Disease Control arrived in
    Rwanda during the audit and began work with USAID, other donors, and the
    Government of Rwanda to start gathering the annual seroprevelance data.
    The first report of the Demographic and Health Survey of Rwanda
    containing 2001 data will be published in 2002.

•   The second level would require the Mission to conduct standardized national
    sexual behavior surveys every three to five years, beginning in 2001.
    USAID/Rwanda has already contracted a partner to conduct this survey. In
    2000, IMPACT undertook the first round of the Behavioral Surveillance
    Survey, which provides valuable data about HIV/AIDS-related knowledge,
    attitudes and behaviors. Standard indicators proposed in the draft guidance
    for this area are "number of sexual partners" and "condom use with last non-
    regular partner." The Mission is presently using one of the two standard
    indicators (condom use with last non-regular partner) as an indicator and has
    the necessary data from the survey to report on the second.

•   At the third level, USAID/Rwanda would be required to report annually,
    not only on trends at the national level—which may or may not directly
    reflect USAID-funded activities—but on progress toward implementing
    USAID's HIV/AIDS programs and increasing the proportion of the target
    population covered by these and other donor programs to 80 percent.



                                                                            21
   USAID/Rwanda faces significant obstacles in this area as 83 percent of
   the population lives in rural areas, where security is still unstable and
   services are limited. Setting up clinics and hospitals in these regions will
   require a more peaceful environment and more trained health
   professionals. However, the Mission has already begun to move into
   Kibuye and Butare regions. Priority activities will be STI training and
   Voluntary Counseling and Testing complemented by community-based
   behavior change and care and support interventions.

   The draft guidance lists seven standard indicators that missions might use
   to measure progress in selected program areas. USAID/Rwanda presently
   is using two of the standard indicators (percent of persons reporting
   condom use with last non-regular partner and percent of STI patients
   diagnosed and treated according to national standards). The Mission and
   its partners are considering the use of other standard indicators for its
   newer programs in the areas of voluntary counseling and testing, orphans
   and vulnerable children, and mother-to-child transmission.

In summary, USAID/Rwanda is on its way to meeting requirements for
collecting all three levels of data anticipated by the draft guidance. The
required biennial sexual behavior survey was in place in 2000. A national
sentinel surveillance system will report 2001 data in 2002. Centers for
Disease Control are helping develop the system to collect seroprevelance
rates, and standard indicators either are being used or will be adopted to
monitor the progress of USAID-funded activities.




                                                                           22
Management       USAID/Rwanda concurred with the audit findings and recommendation that
Comments and     the Mission fully implement the performance monitoring plan’s performance
Our Evaluation   monitoring controls in accordance with the ADS requirements and establish
                 and follow a schedule in which its performance monitoring plan is reviewed at
                 least annually. We reworded the audit recommendation in the final report,
                 replacing the phrase: “fully implement the performance monitoring plan’s
                 performance monitoring control” with “fully implement the 11 performance
                 monitoring controls discussed in this report.” In our view, the revision does
                 not change the meaning of the audit recommendation and the Mission’s
                 comments are responsive to the revised recommendation.

                 In their response, Mission management stated that it had already taken steps to
                 begin implementing the performance monitoring requirements outlined in the
                 ADS. For example, the Mission conducted a portfolio review of the health
                 strategic objective in November 2001. The Mission also secured technical
                 assistance to review and revise the PMP in accordance with the ADS
                 guidelines. A revised set of indicators was prepared and reviewed with
                 activity partners and the Mission plans to issue the revised PMP at the end of
                 March 2002.

                 The Mission also reported that the technical advisor had attended a workshop
                 focused on a national HIV monitoring and evaluation system, and that an
                 assessment of current HIV activities was carried out to help develop future
                 strategic prevention in behavior change and care and support.

                 The Mission took the opportunity to thank the auditors who worked on the
                 assignment. In addition, the Mission identified a few points for clarification.
                 We questioned their point that the funding level in FY 1999 was $2 million, and
                 in subsequent correspondence, USAID/Rwanda concurred that the FY 1999
                 funding was $3 million as stated in the report. Regarding other points of
                 clarification, we have revised the text as deemed necessary.

                 Based on USAID/Rwanda’s response, Recommendation No. 1 is classified as
                 having reached a management decision.




                                                                                            23
Scope and     Scope
Methodology
              The Regional Inspector General, Pretoria conducted this audit in accordance
              with generally accepted government auditing standards. The purpose of the
              audit was to determine: (1) if USAID/Rwanda was monitoring performance of
              its HIV/AIDS program in accordance with ADS guidance; (2) if
              USAID/Rwanda is achieving intended results from its HIV/AIDS program;
              and (3) what is the status of USAID/Rwanda’s efforts to meet anticipated
              HIV/AIDS reporting requirements?

              We are unable to express an opinion on whether USAID/Rwanda is achieving
              intended results from its HIV/AIDS program because reliable and pertinent
              data was not available when the indicators were developed in February 2000.
              (See page 5.)

              For all three indicators, the audit covered performance data for 2000 activities
              plus baseline data reported in both USAID/Rwanda’s Performance Monitoring
              Plan of February 2000 and the FY 2003 Results Review and Resource
              Request (R4). The data was not audited. The Mission used performance data
              reported in the Rwanda 2000 Behavioral Surveillance Survey to measure
              results for two indicators, condom use and STI/HIV knowledge. For the
              STI/HIV diagnosis and treatment indicator the Mission used FY 2000
              performance data provided by the partner. The years for baseline data are
              varied. For condom use and STI/HIV knowledge, the Mission used a 1998
              survey by Population Services International. For STI diagnosis and treatment
              the Mission used 1997 data from a 1997 evaluation from the AIDS Control
              and Prevention project. The review of management controls focused on
              USAID/Rwanda’s Revised Integrated Strategic Plan through FY 2004;
              Performance Monitoring Plan (PMP); FY 2003 R4; and how well the Mission
              complied with USAID and Office of Management and Budget policies and
              guidance.

              For objective two we analyzed the PMP; the data, discussion and self
              assessment in the FY 2003 R4; the Integrated Strategic Plan through FY 2004
              for FY 2000-2003; partner documents; portfolio reviews; a partner meeting;
              site visits and discussions with the health team. Due to the lack of country
              data prior to year 2000, the Mission used the baseline data considered closest
              to indicators chosen for reporting in the FY 2002 R4 (1999 activity data) for
              two indicators. This baseline data used a different age group and had broader
              definitions than the performance data reported in 2000. However,
              performance data reported for 2000 was not comparable to the baseline and
              targets set for two of the indicators. Audit fieldwork was conducted at
              USAID/Rwanda in Kigali and in Nyarusange, Kabgayi, and Gitarama
              between September 27 and October 25, 2001.



                                                                                         24
To answer the third objective, USAID's handbook of indicators for
HIV/AIDS/STI programs and monitoring and evaluation guidance, “USAID’s
Expanded Response to the Global HIV/AIDS Pandemic” (draft dated
February 2001) was used to determine future reporting requirements.

Methodology

To answer the first audit objective, the Mission’s Performance Monitoring
Plan of February 2000 was compared to the requirements set forth in USAID's
Automated Directives System with TIPS for clarification. We determined
whether indicators were precisely defined; data collection methods were
named, schedules were specified and responsibility was assigned; data
limitations were disclosed; quality assessment procedures were described and
followed; baselines were established; and if data agreed to source documents.
Information was obtained as to what other methods were being used by the
Mission for monitoring HIV/AIDS program performance.

To answer the second objective we analyzed the data, self assessment and
discussion in the FY 2003 R4; partner reporting documents; portfolio reviews;
and the Revised Integrated Strategic Plan through FY 2004; site visits plus a
meeting with cooperating partners and discussions with Mission personnel;
particularly the health strategic objective team.

To answer the third objective, we used USAID's handbook of indicators for
HIV/AIDS/STI programs and monitoring and evaluation guidance, “USAID’s
Expanded Response to the Global HIV/AIDS Pandemic” (draft dated
February 2001) to determine future reporting requirements. Discussions were
held with Mission staff to determine the Mission’s plans, constraints and
resource requirements to develop conclusions as to the ability and progress of
the Mission in meeting the coming requirements. In addition, we attended and
considered a partner meeting, where standard indicators, progress and future
planning were discussed.

On a site visit to Nyarusange Health Center, we observed diagnosis and
treatment standards, examined sample data and verified data handling
procedures. In addition, we visited a USAID-funded Voluntary Counseling
and Testing Center at the Kabgayi Hospital where it was determined how
many patients are treated daily, what testing and counseling procedures are
followed, and the process for data gathering and quality control. A meeting
was held with counselors and students of the KUBA Youth information
project in Gitarama schools.

For all the above efforts, we reviewed applicable federal and USAID
regulations and guidance; interviewed Mission officials and project officers;
reviewed Mission documents; interviewed project officials; considered project



                                                                         25
documents such as the Revised Integrated Strategic Plan through FY 2004
were; and visited program sites.

Two materiality thresholds were used in assessing accuracy. First, for
transcription errors, an accuracy threshold of plus or minus one percent was
set. Second, for computation accuracy, a threshold of plus or minus five
percent was set.




                                                                          26
                                                                                               Appendix II


Management
Comments:

                                        UNITED STATES OF AMERICA
                                  AGENCY FOR INTERNATIONAL DEVELOPMENT
                                       U.S.A.I.D. MISSION TO RWANDA


             UNITED STATES POSTAL ADDRESS                       INTERNATIONAL POSTAL ADDRESS
             USAID/RWANDA                                              B.P. 2848, KIGALI, RWANDA
             DEPARTMENT OF STATE                                       TEL: (250)70939/70940/70941
             WASHINGTON, D.C. 20521-2210                                     TELEFAX: (250) 7 3950


        Joseph Farinella                                                    February 7, 2002
        Regional Inspector General
        USAID/Pretoria                                                      Ref:                AID


        Dear Mr. Farinella:

        On behalf of USAID/Rwanda, I would like to express our appreciation for the HIV Audit Team’s
        visit in October, 2001. Having reviewed the draft report, the Mission concurs with the findings
        and the recommendation made by the Team.

        During the visit, the Team provided several useful documents which have guided our efforts to
        update the Mission Health Team’s Performance Monitoring Plan (PMP), with a special emphasis on
        HIV/AIDS-related indicators. As a result of the audit process, USAID/Rwanda has already taken
        steps to begin implementing the Performance Monitoring requirements outlined in the ADS:

             ! A Portfolio Review of the Strategic Objective (SO) for Health was conducted in November,
               2001

             ! The Mission secured technical assistance from the REDSO Population, Health and
               Nutrition (PHN) Officer in January, 2002 to review and revise the SO Performance
               Monitoring Plan in accordance with ADS Guidance and the worksheets provided in “The
               Performance Management Toolkit, A Guide to Developing and Implementing Performance
               Monitoring Plans” by Price Waterhouse Coopers, January, 2001. During this visit, a
               revised set of draft indicators was prepared and subsequently reviewed during a
               consultation meeting with key implementation partners (the IMPACT and PRIME II
               project partners), the SO Team, and senior Mission staff. The revised PMP will be
               completed before the Mission Program Review, which is tentatively scheduled for March,
               2002.

             ! The Mission’s Technical Advisor for AIDS and Child Survival (TAACS) attended an HIV
               Monitoring and Evaluation Workshop with a multidisciplinary team of Rwandan health
               officials and project staff in Dakar, Senegal from February 4-6, 2002. The result of the




                                                                                                      27
      workshop, which is co-sponsored by USAID, CDC, and UNAIDS, will be a national HIV
      monitoring and evaluation system that follows the guidelines being established for
      measuring results of national HIV/AIDS control programs.

    ! USAID/Rwanda will carry out an HIV Assessment in February, 2002, to review current
      activities and to make recommendations for future strategic directions in HIV prevention,
      behavior change communication, and care and support (clinic and community-based). The
      Assessment Team will review and revise the HIV/AIDS-related indicators in the new
      version of the PMP.

We anticipate that a revised PMP that is in compliance with ADS requirements will be completed
by March 31, 2002, and will include indicators to guide us through the transition period to our
next strategy.

Regarding the text of the draft report, we have identified a few points for clarification.

"   In the last paragraph of the Background section on page 5, please note that the HIV/AIDS
    funding level in FY1999 was $2 million.

"   Regarding the Mission’s STI/HIV/AIDS activities as described in the second paragraph on
    page 15, please note that, even with projects that are implemented through field support/buy-
    ins, the Mission does provide significant guidance regarding the initiation and development
    of in-country activities.

"   Regarding the relationship and activities of FHI and JHU as discussed on pages 16 and 17,
    please note that, during the field visit, the Audit Team saw activities which are being
    implemented by two different USAID partners. The VCT Center and the STI treatment
    programs are IMPACT Project activities (Family Health International). The Team also
    observed some HIV prevention group activities for youth which are implemented by the
    Population Communication Service (PCS) Project (Johns Hopkins University).

"   The policies and practices of churches in Rwanda with regard to condom use cannot be
    attributed to a single denomination as implied on page 19 of the report. In Rwanda, religious
    institutions have tremendous influence and some denominations do not support condom use
    as an option for HIV prevention.

"   Regarding the Voluntary Counseling and Testing (VCT) data reported on page 20, please
    note that the figures quoted refer to all clients, not just youth.




                                                                                             28
In conclusion, our thanks again to the Audit Team for their visit. Please feel free to contact me or
Dick Warin, the Mission Controller, at any time regarding audit issues.



                                                              Sincerely,



                                                              Dick Goldman
                                                              Mission Director


Cleared by:
J. LaRosa MSC______________ Date: _________
D. Warin CONT ____________ Date: _________




                                                                                               29
                                                                                           Appendix III


Rapid Scale-Up and
Intensive Focus
Countries
                     Rapid Scale-Up Countries are defined as countries that will receive a
                     significant increase in resources to achieve measurable impact within one to
                     two years. This will result in an extremely rapid scaling up of prevention
                     programs and enhancement of care and support activities. Rapid Scale-Up
                     countries include:

                                  Cambodia       Kenya          Uganda          Zambia

                     Intensive Focus Countries are defined as countries in which resources will
                     be increased and targeted to reduce prevalence rates (or keep prevalence low
                     in low-prevalence countries), to reduce HIV transmission from mother to
                     infant and to increase support services for people (including children) living
                     with and affected by AIDS within three to five years. Intensive Focus
                     Countries include:

                     Ethiopia                              Nigeria                       Brazil
                     Ghana                                 Rwanda                        India
                     Malawi                                Senegal                       Russia
                     Mozambique                            South Africa
                     Namibia                               Tanzania

                     Basic Countries are defined as countries in which USAID will support host
                     country efforts to control the pandemic. USAID programs will continue to
                     provide assistance, focusing on targeted interventions for populations who
                     engage in high-risk behavior. In these countries, there will be an increased
                     emphasis on maintaining credible surveillance systems in order to monitor
                     HIV trends and allow timely warning of impending concentrated epidemics of
                     HIV. In addition, USAID will assist country institutions to identify additional
                     sources of funding to expand programming.




                                                                                                30
                                                                                                                                              Appendix IV

            Summary of USAID/Rwanda’s Selected Performance Monitoring Controls
                                                                Performance Monitoring Plan (PMP)
      Indicator                1.            2.            3.              4.               5.                6.                  7.                8.               9.             10.            11.
     Number and             Indicator      Data          Data            Data          Responsibility        Data              Quality         Data Quality       Baseline         Data     Other Means of
      Indicator             Precisely     Sources      Collection      Collection        Assigned         Limitations        Assessment        Assessment        Established      Agrees      Monitoring
       Name:                 Defined     Identified     Method         Schedule                            Disclosed         procedures           Done                              To      (If yes, indicate
                                                       Described       Specified                           (Note 1)           described          (Note 2)                         Source     type) (Note 3)
                                                                                                                               (Note 1)


#1 "% of target group
reporting condom use in
                              No           Yes            No              Yes               No                No                 No                 No               No            No             Yes
most recent act with non-                                                                                                                                           (Note 4)
regular partner"



#2 "% of STI cases
treated according to
National standards in         No           Yes            No              Yes               No                No                 No                 No               Yes           Yes            Yes
target areas”
(Note 5)


#3 "% of target group
citing at least two
effective means of            No           Yes            No              Yes               No                No                 No                 No               No            Yes            Yes
protecting themselves                                                                                                                                              (Note 4)
from HIV infection"


  Note 1      These requirements were added to the ADS as of August 2000, and were effective June 1, 2001
  Note 2      Data quality assessments are required only for R4 indicators. All others require that managers know the data’s strengths and weaknesses.
  Note 3      Program portfolio reviews and partner meetings are examples of "other monitoring tools" the Mission used to monitor performance.
  Note 4      Baseline data is not comparable to performance data.
  Note 5      The indicator was presented erroneously in the PMP as "% of health centers meeting functional requirements (as defined by established criteria) in “STI delivery in target
              areas.”




                                                                                                                                                                                           31
